Frankfurt Kurnit Kkin Selz
Edward Rosenthal
28 Liberty Street, New York, New York 10005
T (212) 826-5524

F (347) 438-2114

erosenthal(Ofkkstonl

February 6, 2020
VIA ELECTRONIC FILING AND FEDERAL EXPRESS
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Yamashita v. Scholastic Inc Docket No. 19-894

Dear Mr. Harris:
We represent Respondent Scholastic Inc. ("Scholastic") in the above referenced matter.
The Petition for a Writ of Certiorari in this case was filed on January 13, 2020 and placed on the
docket on January 17, 2020. Scholastic's brief in opposition to the Petition for a Writ of
Certiorari is due on February 18, 2020. Pursuant to Rule 30.4 of the Rules of the United States
Supreme Court, Scholastic requests a thirty (30) day extension of the time to file its brief in
opposition to Petition for a Writ of Certiorari.
I am counsel of record in this case. The reason for this request is that I and my colleague
who has been working with me on this case are involved in intensive depositions and other
discovery matters in a case pending in the United States District Court for the Middle District of
Tennessee. The fact discovery cutoff in that case is February 28, 2020.
Accordingly, we respectfully request a thirty (30) day extension of time, until March 19,
2020, to file a brief in opposition to the Petition for a Writ of Certiorari.
Thank you for your consideration of this request.
Respectfully submitted,

Edward H. Rosenthal

